App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAMELA MOTLEY; et al.,
Plaintiffs-Appellants,

No. 18-15171

v.

D.C. No.
1:15-cv-00905DAD-BAM

JOSEPH SMITH, Fresno
Police Officer; et al.,

MEMORANDUM*

Defendants-Appellees.

(Filed Aug. 22, 2019)

Appeal from the United States District Court
for the Eastern District of California
Dale A. Drozd, District Judge, Presiding
Argued and Submitted August 8, 2019
San Francisco, California
Before: O’SCANNLAIN, McKEOWN, and BENNETT, Circuit Judges.
Pamela Motley and Cindy Raygoza, through her
estate and surviving children, brought 42 U.S.C. § 1983
claims for violations of their equal protection rights
and their substantive due process rights relating to
the right to familial association under the Fourteenth
Amendment. They claim that the Fresno Police Department (“FPD”) treats domestic violence and female
crime victims differently than similarly situated
* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
victims. The district court granted summary judgment
in favor of the City of Fresno and individual FPD officers for the equal protection claim and dismissed the
substantive due process claim. We affirm in part and
reverse in part.
The record in this case is extensive, and the parties are familiar with the facts so we do not repeat
them here. The record includes contradictory accounts
involving material facts. Drawing all inferences in favor of Motley and Raygoza’s estate and children, we
conclude that there are genuine disputes of material
facts about whether the FPD treats disfavored groups
of crime victims—women and domestic violence crime
victims—differently than similarly situated victims.
See Navarro v. Block, 72 F.3d 712, 716–17 (9th Cir.
1995). Therefore, we reverse the district court’s grant
of summary judgment on the equal protection claim
and remand the case for further proceedings.
The substantive due process claim proposes a
novel argument that an equal protection violation may
serve as a basis for a substantive due process claim for
the denial of the right to familial association. The
Ninth Circuit has not considered this theory of substantive due process, and we do not need to reach it
here. The allegations in the complaint do not allege
state action or a state-created danger causing the deprivation of familial association. See Wilkinson v. Torres,
610 F.3d 546, 554 (9th Cir. 2010). We affirm the district
court’s dismissal of this claim.

App. 3
The parties shall bear their own costs on appeal.
AFFIRM IN PART; REVERSE AND REMAND IN
PART.

App. 4
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF CALIFORNIA
PAMELA MOTLEY;
ESTATE OF CINDY
RAYGOZA, through its legal
representative and administrator, YVETTE CALDERA;
YVETTE CALDERA;
VALERIE CALDERA;
DANNY RICE,
Plaintiffs,
v.
JOSEPH SMITH; BRIAN
LITTLE; DERRICK
JOHNSON; MICHAEL
COUTO; BERNARD FINLEY;
BYRON URTON; RYAN
ENGUM; UNKNOWN
FRESNO POLICE
OFFICERS; THE CITY OF
FRESNO, CALIFORNIA,

No. 1:15-cv-00905DAD-BAM
ORDER GRANTING
DEFENDANTS’
MOTION FOR
SUMMARY JUDGMENT, DENYING
DEFENDANTS’
MOTION IN LIMINE
AS MOOT, AND
DENYING PLAINTIFFS’ MOTION
FOR SANCTIONS
(Doc Nos. 102, 106, 107)

Defendants.
This matter is before the court on defendants’ motion for summary judgment (Doc. No. 102), defendants’
motion in limine to exclude certain evidence (Doc. No.
106), and plaintiffs’ motion for sanctions (Doc. No. 107).
On November 7, 2017, those motions came before the
court for hearing. Attorneys Kevin G. Little and Robert
G. Fuentes appeared on behalf of the plaintiffs. Attorney Anthony M. Sain appeared on behalf of the

App. 5
defendants. Having reviewed the parties’ briefing and
heard arguments, and for the reasons that follow, defendants’ motion for summary judgment will be
granted, defendants’ motion in limine will be denied as
moot, and plaintiffs’ motion for sanctions will be denied.1
BACKGROUND
The facts in this tragic case involving two acts of
domestic violence, one deadly and the other severely
disabling, are as follows and are undisputed except
where noted. On March 13, 2014, plaintiff Pamela Motley called the Fresno Police Department (“FPD”) and
reported that her husband Paul Motley (“Paul”) had attacked her the prior day. (Doc. No. 120 (“UMF”) at ¶ 1.)
FPD Officers Smith and Little responded to Pamela
Motley’s location the following day. (Id. at ¶ 2.) Paul
was not present when Officers Smith and Little arrived. (Id.) The officers observed Pamela Motley’s injuries, and later the same day, they located Paul and also
observed injuries on his body. (Id.) The FPD officers did
not arrest Paul at that time because they concluded
that his injuries were indicative of “mutual combat,”
although the parties dispute whether such a conclusion was justified as a matter of law. (Id.) The officers
also requested an emergency restraining/protective order (“EPO”) against Paul, provided the emergency protective order to Pamela Motley, and served it on Paul
1

Below, the court will also addresses [sic] plaintiffs’ “Suggestion for Sua Sponte Reconsideration.” (Doc. No. 123.)

App. 6
that same day. (Id. at ¶ 3.) That EPO was set to expire
by March 21, 2014. (Id. at ¶ 4) The parties dispute
whether Paul was subject to a separate court-issued
protective order stemming from a January 6, 2014 incident in which he allegedly attacked another woman.
(Id. at ¶ 5.) The parties further dispute whether Officers Smith and Little provided Pamela Motley with an
FPD domestic violence information form, as they were
required to do under FPD policy. (Id. at ¶ 6.) Specifically, FPD officers are trained to provide a domestic violence information form to each domestic violence
victim they encounter on their calls and to advise domestic violence victims of their right to make a citizen’s arrest. (Id. at ¶ 7.) Plaintiffs contend that as a
factual matter, FPD officers frequently fail to do so,
and none of the parties or non-party declarants offered
by plaintiffs ever received this information from FPD
officers. (Id.)
Officers Smith and Little discovered a firearm registered to Paul that was in the control of the [sic] Pamela Motleys’ adult daughter. (Id. at ¶ 11.) The daughter
retrieved the firearm and turned it over to the officers.
(Id.) Plaintiff Pamela Motley contends that this discovery warranted Paul’s arrest, because the conditions of
the protective order prohibited him from owning or
controlling a firearm. (Id.).
On March 18, 2014, when the EPO was set to expire, Pamela Motley obtained a separate domestic violence restraining order (“DVRO”) against Paul barring
him from (among other things) coming to her home or
work, contacting her, and harassing her. (Id. at ¶ 12.)

App. 7
From that point until April 12, 2014, the parties agree
that Paul threatened and harassed Pamela Motley, including by phone and text, but did not physically harm
her. (Id. at ¶ 13.) On March 24, 2014, Paul went to
Pamela Motley’s place of work and demanded that she
give him the keys to her car. (Id. at ¶ 14.) Plaintiff
Pamela Motley contends that in addition to demanding
her car keys, Paul threatened her and said he was going to break all of the car windows if she did not comply
with his request. (Id.) FPD Officers Couto and Johnson
responded to her location on the same day. (Id.) The
officers confirmed that the DVRO had been issued, but
that Paul was not in violation because he had not been
served with the order. (Id. at ¶ 15.) Paul was then
served with the DVRO, but he was not arrested—plaintiff contends that he should have been arrested at that
time because he was in violation of the January 6, 2014
protective order. (Id. at ¶ 16) Officer Johnson informed
Paul that he could not come within 100 yards of Pamela Motley or her place of employment, and could not
contact her. (Id. at ¶ 17.) The parties dispute whether,
before leaving the scene, the FPD officers provided
Pamela Motley with the domestic violence information
form as required by policy. (Id. at ¶¶ 18–19.)
On March 25, 2014, Pamela Motley awoke to find
that Paul had called and texted her, and she also believed that he had slashed the tires of her car, which
was parked at her home. (Id. at ¶ 20.) She called the
FPD twice that day to report the incident. (Id.) On
March 26, 2014, Officer Finley responded to her location and confirmed that Paul had called/texted Pamela

App. 8
Motley in violation of the DVRO. (Id. at ¶ 21.) Officer
Finley attempted to contact Paul at his residence but
was unsuccessful. (Id. at ¶ 22.) Plaintiff Pamela Motley’s expert has opined that Officer Finley did not adhere to best practices pertaining to domestic violence,
which required him to issue a warrant, issue a “be on
the lookout” notice, make repeated attempts to contact
the alleged perpetrator, or advise the victim of her
rights under Penal Code § 13701(c)(9). (Id.) Defendants maintain that if Officer Finley had located Paul,
he would have arrested him at that time. (Id. at ¶ 23.)
Plaintiff Pamela Motley disputes this because other
FPD officers previously had cause to arrest Paul but
failed to do so. (Id.) The parties also again dispute
whether Officer Finley provided Pamela Motley with a
domestic violence information form, although Pamela
Motley testified at her deposition that she does not
know how she would have been better protected if she
had received the information contained in the domestic
violence form. (Id. at ¶¶ 24, 25.)
On March 28, 2014, Pamela Motley called the FPD
and reported that Paul had continued to call and text
her in violation of the DVRO. (Id. at ¶ 26.) She also reported that through third parties, she heard that Paul
had threatened to kill her and her parents. (Id.) Paul
did not personally threaten to kill Pamela Motley in
his calls and texts to her on this occasion, although
Pamela Motley contends that he had done so in the
past. (Id. at ¶ 27.) FPD officers began to respond to
Pamela Motley’s home, but upon doing so learned that
she had relocated to Kerman, CA. (Id. at ¶ 28.) FPD’s

App. 9
response was then canceled, although Pamela Motley
contends that this response by FPD to Paul’s threats
was inadequate. (Id.) Paul was not arrested that day,
or on April 3, 2014 when he appeared in court on related restraining order proceedings initiated by Pamela Motley’s parents. (Id. at ¶ 29.) Pamela Motley also
contends that Paul had a court appearance in a criminal case on April 1, 2014 and was also not arrested at
that time. (Id.) It is undisputed that no FPD officers
were present at these court proceedings, or even aware
of them, although Pamela Motley contends that if FPD
officers had complied with the prevailing practices,
documentation would have been generated that would
have resulted in Paul’s arrest at the time of his appearance in court. (Id. at ¶ 30.)
On April 7, 2014, Paul threatened Pamela Motley
in person that he would kill her with his gun if she did
not return to him by April 14, 2017. (Id. at ¶ 31.) FPD
Officer Urton responded to Pamela Motley’s location
that same day. (Id. at ¶ 32.) The parties dispute the nature of the interaction between Officer Urton and Pamela Motley. (See id. at ¶¶ 33–38.) Defendants contend
that Officer Urton stayed approximately 80 minutes
with Pamela Motley and that in addition to questioning her about Paul’s threat, he also provided her with
information about how to protect herself. (Id.) By contrast, Pamela Motley contends that Officer Urton was
rude, insensitive, made sexist remarks to Pamela Motley, and stayed only about ten to fifteen minutes. (Id.)
The parties further dispute whether, after this interaction, Officer Urton drove to Paul’s house in an attempt

App. 10
to arrest him. (Id. ¶ 39.) Defendants claim that Officer
Urton knocked repeatedly on Paul’s door and waited
outside his house for approximately 40 minutes, while
Pamela Motley has presented evidence that Officer Urton never went to Paul’s house. (Id.) In any event, Paul
was not arrested on April 7, 2014. (Id.)
On April 9, 2014, Paul made another appearance
in court in a proceeding involving Pamela Motley. (Id.
at ¶ 40.) No FPD officers or defendants were present
at that time, although plaintiffs contend that, had the
officers complied with domestic violence law, policy,
and prevailing practices, Paul would have been arrested at that time. (Id.) Paul was not arrested.
On April 12, 2014, Paul, while lying in wait, shot
Pamela Motley outside of her parents’ home, which resulted in her paralysis. (Id. at ¶ 41.)
On or about February 24, 2014, Cindy Raygoza
called the FPD to report that her ex-boyfriend, Michael
Reams (“Reams”), had entered her home without her
consent, attacked her, and tried to choke her. (Id. at
¶ 45.) FPD Officer Engum responded to Cindy
Raygoza’s location, but Reams had already fled by the
time the officer arrived. (Id. at ¶ 46.) Officer Engum,
who was accompanied by Officer Fern, took Cindy
Raygoza’s statement, ran a criminal history check, and
informed Cindy Raygoza that Reams had been convicted of domestic violence in the past. (Id. at ¶¶ 47–
49.) Plaintiffs contend that when Cindy Raygoza told
police that she had been a victim of domestic violence
in a prior marriage, Officer Engum “criticize[d] her

App. 11
choices of men,” a statement which Officer Engum denies making. (Id. at ¶ 50.) Officer Engum advised
Cindy Raygoza that because she was aware of Reams’s
violent nature, she should avoid associating with him.
(Id. at ¶ 51.) Officer Engum then offered Cindy
Raygoza an EPO, but she declined, stating that she
wanted a permanent or full-time restraining order. (Id.
at ¶ 52.) Plaintiffs contend that one of the officers told
Cindy Raygoza that if she chose to continue to associate with Reams, her future calls related to him would
be viewed as her “crying wolf ” and that she “would not
receive any responses” from the FPD. (Id. at ¶ 53.) Officer Engum then advised Cindy Raygoza that he intended to arrest Reams for violation of his parole. (Id.
at ¶ 54.) The parties dispute whether the officers provided Cindy Raygoza with an FPD domestic violence
form, and whether Cindy Raygoza displayed any evidence of her physical injuries to the officers. (Id. at
¶¶ 55–56.) After canvassing the area for approximately 20 minutes, Officer Engum was unable to locate
Reams and departed. (Id. at ¶ 59.) Following this
event, Cindy Raygoza did not report any other incidents to FPD regarding Reams. (Id. at ¶¶ 55–58.)
On July 14, 2014, Reams broke into Cindy
Raygoza’s residence, pinned her to the ground, and
stabbed her repeatedly. (Id. at ¶ 61.) FPD Officers
Engum and Ruelas responded immediately after
neighbors called FPD to report the incident. (Id. at
¶ 62.) Upon forcing their way into Cindy Raygoza’s residence, the officers saw Reams on top of Raygoza, stabbing her. (Id. at ¶ 63.) Officer Ruelas then shot and

App. 12
killed Reams. Cindy Raygoza died from her injuries.
(Id.)
The FPD is a fully certified law enforcement
agency in compliance with the minimum standards set
forth by the California Peace Officer Standards and
Training (P.O.S.T.) Commission, which are statewide
standards governing the hiring, training, and supervision of police personnel. (Id. at ¶ 69.) The FPD operates
with widely recognized and published policies and
commonly accepted police procedures. (Id.) Plaintiffs
contend that despite this, with respect to domestic violence cases, the FPD does not in fact comply with best
practices or adhere to the minimum standards established by the California P.O.S.T. Commissions. (Id.)
Although it is undisputed that the FPD or the City of
Fresno does not have an official policy discriminating
on the basis of gender or against domestic violence victims, the parties very much dispute whether a de facto
policy or custom to that effect exists. (Id. at ¶ 68.)
Plaintiffs further maintain that the evidence on summary judgment supports the conclusion that defendants were not properly trained on the circumstances
under which they must carry out an arrest. (Id. at
¶¶ 70, 71.)
LEGAL STANDARD
Summary judgment is appropriate when the moving party “shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a).

App. 13
In summary judgment practice, the moving party
“initially bears the burden of proving the absence of a
genuine issue of material fact.” In re Oracle Corp. Sec.
Litig., 627 F.3d 376, 387 (9th Cir. 2010) (citing Celotex
Corp. v. Catrett, 477 U.S. 317, 323 (1986)). The moving
party may accomplish this by “citing to particular
parts of materials in the record, including depositions,
documents, electronically stored information, affidavits or declarations, stipulations (including those made
for purposes of the motion only), admissions, interrogatory answers, or other materials” or by showing that
such materials “do not establish the absence or presence of a genuine dispute, or that an adverse party cannot produce admissible evidence to support the fact.”
Fed. R. Civ. P. 56(c)(1)(A), (B). When the non-moving
party bears the burden of proof at trial, as plaintiff
does here, “the moving party need only prove that
there is an absence of evidence to support the nonmoving party’s case.” Oracle Corp., 627 F.3d at 387 (citing Celotex, 477 U.S. at 325); see also Fed. R. Civ. P.
56(c)(1)(B). Indeed, summary judgment should be entered, after adequate time for discovery and upon motion, against a party who fails to make a showing
sufficient to establish the existence of an element essential to that party’s case, and on which that party
will bear the burden of proof at trial. See Celotex, 477
U.S. at 322. “[A] complete failure of proof concerning an
essential element of the nonmoving party’s case necessarily renders all other facts immaterial.” Id. at 322–
23. In such a circumstance, summary judgment should
be granted, “so long as whatever is before the district

App. 14
court demonstrates that the standard for the entry of
summary judgment . . . is satisfied.” Id. at 323.
If the moving party meets its initial responsibility,
the burden then shifts to the opposing party to establish that a genuine issue as to any material fact actually does exist. See Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 586 (1986). In attempting to
establish the existence of this factual dispute, the opposing party may not rely upon the allegations or denials of its pleadings but is required to tender evidence
of specific facts in the form of affidavits or admissible
discovery material in support of its contention that the
dispute exists. See Fed. R. Civ. P. 56(c)(1); Matsushita,
475 U.S. at 586 n.11; Orr v. Bank of Am., NT & SA, 285
F.3d 764, 773 (9th Cir. 2002) (“A trial court can only
consider admissible evidence in ruling on a motion for
summary judgment.”). The opposing party must
demonstrate that the fact in contention is material,
i.e., a fact that might affect the outcome of the suit under the governing law, see Anderson v. Liberty Lobby,
Inc., 477 U.S. 242, 248 (1986); T.W. Elec. Serv., Inc. v.
Pac. Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir.
1987), and that the dispute is genuine, i.e., the evidence is such that a reasonable jury could return a verdict for the non-moving party, see Anderson, 477 U.S. at
250; Wool v. Tandem Computs. Inc., 818 F.2d 1433, 1436
(9th Cir. 1987).
In the endeavor to establish the existence of a factual dispute, the opposing party need not establish a
material issue of fact conclusively in its favor. It is sufficient that “the claimed factual dispute be shown to

App. 15
require a jury or judge to resolve the parties’ differing
versions of the truth at trial.” T.W. Elec. Serv., 809 F.2d
at 631. Thus, the “purpose of summary judgment is to
‘pierce the pleadings and to assess the proof in order to
see whether there is a genuine need for trial.’ ” Matsushita, 475 U.S. at 587 (citations omitted).
“In evaluating the evidence to determine whether
there is a genuine issue of fact,” the court draws “all
inferences supported by the evidence in favor of the
non-moving party.” Walls v. Cent. Contra Costa Cty.
Transit Auth., 653 F.3d 963, 966 (9th Cir. 2011). It is
the opposing party’s obligation to produce a factual
predicate from which the inference may be drawn. See
Richards v. Nielsen Freight Lines, 602 F. Supp. 1224,
1244–45 (E.D. Cal. 1985), aff ’d, 810 F.2d 898, 902 (9th
Cir. 1987). Finally, to demonstrate a genuine issue, the
opposing party “must do more than simply show that
there is some metaphysical doubt as to the material
facts. . . . Where the record taken as a whole could not
lead a rational trier of fact to find for the non-moving
party, there is no ‘genuine issue for trial.’ ” Matsushita,
475 U.S. at 587 (citation omitted).
DISCUSSION
A. Summary Judgment
Defendants move for summary judgment in their
favor with respect to all of plaintiffs’ claims, or in the
alternative for partial summary judgment. (Doc. No.
102.) The court addresses each of defendants’ arguments in turn below.

App. 16
1. Plaintiffs’ Equal Protection Claims
Defendants first argue that they are entitled to
summary judgment in their favor with respect to
plaintiffs’ claims that they were denied equal protection based on both their gender and status as victims
of domestic violence.
Before addressing plaintiffs’ equal protection
claims in light of the evidence presented on summary
judgment, certain preliminary issues must be addressed. As an initial matter, it has been recognized
that “there is no constitutional right to be protected by
the state against being murdered by criminals or madmen.” Estate of Macias v. Ihde, 219 F.3d 1018, 1028 (9th
Cir. 2000) (quoting Bowers v. DeVito, 686 F.2d 616, 618
(7th Cir. 1982)). By the same token, individuals do have
a constitutional right “to have police services administered in a nondiscriminatory manner—a right that is
violated when a state actor denies such protection to
disfavored persons.” Id. (citations omitted). In bringing
this action plaintiffs contend, in essence, that their assailants were “given a pass by the police” because of
the officers’ bias against their victims. See Elliot-Park
v. Manglona, 592 F.3d 1003, 1006 (9th Cir. 2010). To
establish an Equal Protection Clause violation in the
context of discriminatory policing, a plaintiff must
prove that: (1) defendants’ enforcement of the law had
the effect of discriminating against members of the disfavored group/class; and (2) the police were motivated
by a discriminatory purpose. Rosenbaum v. City &
County of San Francisco, 484 F.3d 1142, 1152 (9th Cir.

App. 17
2007) (citing Wayte v. United States, 470 U.S. 598, 608
(1985)).
Here, defendants’ [sic] argue that there is no evidence before the court on summary judgment of disparate treatment of plaintiffs vis-à-vis similarly situated
individuals who are not members of the protected
class. In an analogous case in which an Equal Protection Clause violation was alleged based upon discriminatory prosecution, the Ninth Circuit observed that in
order to prove a discriminatory effect, “the claimant
must show that similarly situated individuals . . . were
not prosecuted.” Lacey v. Maricopa County, 693 F.3d
896, 920 (9th Cir. 2012) (quoting United States v. Armstrong, 517 U.S. 456, 465 (1996)). In other words, it is
not enough to show that plaintiffs were treated poorly;
there must also be a showing that they were treated in
a worse fashion than similarly situated individuals.
Plaintiffs may satisfy this requirement in multiple
ways. First, a plaintiff may present a statistical analysis showing a disparity in the government’s treatment
of disfavored and non-disfavored groups. See Armstrong, 517 U.S. at 470 (considering whether a study
showing racial disparities in prosecution was sufficient
to show discriminatory effect); Yick Wo v. Hopkins, 118
U.S. 356, 374 (1886) (finding that a facially neutral city
ordinance regulating laundromats violated the Equal
Protection Clause where the plaintiff demonstrated
that permits were denied to 200 Chinese persons but
granted for 80 similarly situated non-Chinese persons). Alternatively, a plaintiff may point to specific instances in which the government treated similarly

App. 18
situated individuals differently, which would allow the
factfinder to infer that the different treatment resulted
from invidious discrimination. See Gilani v. Matthews,
843 F.3d 342, 348–49 (8th Cir. 2016) (considering both
specific instances of disparate treatment and statistical analysis in determining whether a plaintiff had
demonstrated discriminatory effect); Chavez v. Ill.
State Police, 251 F.3d 612, 636 (7th Cir. 2001) (citing
Armstrong, 517 U.S. at 467) (same); see also ElliotPark, 592 F.3d at 1006 (noting a discriminatory effect
in policing where an officer fully investigated an identical crime that occurred on the same night, but declined to fully investigate the crime committed against
plaintiff ).
Here, defendants persuasively argue that plaintiffs
have failed to present evidence on summary judgment
supporting the required showing of discriminatory effect. There is no evidence before the court on summary
judgment suggesting that the FPD treats men or nondomestic violence victims any differently than the
crime victims who have brought this action. Plaintiffs
merely state in their opposition brief that “[t]he officers’ recurring failures to follow state law and best practices stand in stark contrast to the [FPD’s] handling of
other cases.” (Doc. No. 118 at 12.) But plaintiffs do not
direct the court’s attention to evidence with respect to
the “other cases” to which they refer, nor does the court
find any such evidence before it. The court is therefore
left with plaintiff ’s conclusory assertion that crime victims Pamela Motley and Cindy Raygoza were somehow
treated “differently” than other similarly situated

App. 19
victims, with no explanation as to how this is so. Such
conclusory assertions, unsupported by any evidence,
are insufficient to survive a motion for summary judgment.
It is true that plaintiffs have presented evidence
on summary judgment that the FPD is “a gold medal
organization, as adjudged by the Commission on Accreditation for Law Enforcement Agencies, Inc. (CALEA).”
(UMF ¶ 43.) Plaintiffs argue that this accreditation
“shows that its officers are overall very professional,
high performing, and well trained.” (Id.) Given this accreditation and the FPD’s “general diligence,” plaintiffs
contend that “it is at least a palpable inference that,
outside of the domestic violence area, the types of glaring failures recounted above would not occur at all,
much less repeatedly.” (Id.)
Plaintiffs have failed to cite any authority for the
proposition that a violation of police department “best
practices,” without more, is sufficient to support a finding of discriminatory effect under the Equal Protection
Clause. Violation of such best practices, even if proven,
would do no more than show that the FPD was not living up to its own standards, or to the standards of a
certifying agency such as CALEA. It would not be sufficient to establish that the FPD and its officers were
providing substandard law enforcement for a particular subset of the general population, such as women or
victims of domestic violence.
Plaintiffs do cite to three cases which, they claim,
should preclude the granting of summary judgment in

App. 20
favor of defendants with respect to their equal protection claim. The first case relied upon by plaintiffs is one
in which the district court dismissed plaintiff ’s equal
protection claim with prejudice, even though the plaintiff had alleged in her complaint that officers refused
to place her husband under arrest after beating her,
and were “rude, insulting and unsympathetic” towards
her. See Balistreri v. Pacifica Police Dep’t, 901 F.2d 696,
698 (9th Cir. 1988). In Balistreri the plaintiff had also
alleged that a responding officer said he “did not blame
plaintiff ’s husband for hitting her, because of the way
she was carrying on.” Id. at 701 (internal quotations
and citation omitted). The Ninth Circuit reversed, concluding that the plaintiff should have been granted
leave to amend her complaint since facts alleged in her
opposition to the motion to dismiss “if true, may be a
proper subject for relief.” Id.
The decision in Balistreri was issued in the context of a motion to dismiss, whereas the instant action
is now before the court on a motion for summary judgment. The question before the court in Balistreri was
whether, from the complaint and opposition to the motion to dismiss, it could “conceive of facts” that would
entitle plaintiff to relief, such that granting leave to
amend the complaint was appropriate. Id. (quoting
Hall v. City of Santa Barbara, 833 F.2d 1270, 1274 n.6
(9th Cir. 1986)). The court in Balistreri properly noted
that in her opposition to the motion to dismiss plaintiff
had “alleged facts indicating that as a woman, she was
discriminated against when seeking police protection
from a known danger, her former husband.” Id.

App. 21
Plaintiffs in this case have done likewise. However, at
the summary judgment stage, it is insufficient merely
to allege such discrimination. Rather, at this stage of
the litigation evidence of discrimination must be presented by the plaintiffs since they will bear the burden
of proof on that issue at trial. The decision in Balistreri
does not stand for the proposition that evidence of discriminatory intent can raise a triable issue of fact as to
discriminatory effect. To do so would collapse the twopart equal protection inquiry into a single prong. The
court does not read Balistreri to have effectuated such
a change in equal protection law. The decision in
Balistreri, therefore, provides no support to plaintiffs
in opposing defendants’ motion for summary judgment.
Second, plaintiffs direct the court’s attention to a
case in which the Ninth Circuit reversed a grant of
summary judgment on the plaintiffs’ equal protection
claim in which it was alleged that police failed to
timely respond to domestic violence calls. See Navarro
v. Block, 72 F.3d 712 (9th Cir. 1995). The Ninth Circuit
in Navarro held that even though the plaintiffs had not
demonstrated that the sheriff ’s department in question had intentionally discriminated against women,
their equal protection claims survived a motion for
summary judgment on the basis of discrimination
against victims of domestic violence “because they
could prove that the domestic violence/non-domestic
violence classification fails even the rationality test.”
Id. at 717. In other words, even though there was no evidence that the county sheriff’s department intended to

App. 22
discriminate against women, there was evidence presented on summary judgment showing that the county
had a policy of responding less urgently to domestic violence calls. In particular, in Navarro a 911 dispatcher
had testified at deposition that dispatchers in the
county “were not instructed to treat domestic violence
calls as emergencies.” Id. at 715.
The Ninth Circuit in Navarro confined its equal
protection analysis to the question of discriminatory
intent, since there was apparently no dispute as to discriminatory effect. The plaintiffs in Navarro came forward on summary judgment with direct evidence that
the sheriff ’s department treated domestic violence victims differently than victims of other crimes and that
“it was the practice of the Sheriff ’s Department not to
classify domestic violence calls as an ‘emergency.’ ” Id.
By contrast, plaintiffs here have produced no similar
evidence that defendants treated domestic violence
victims any worse than victims of any other crime. At
most, the plaintiffs in this case have shown that the
FPD’s response to reports of domestic violence may
have fallen below the standards the FPD sets for itself.
They have not, however, presented any evidence showing that the FPD’s response to domestic violence
crimes was any different than its response to any other
crimes.
Third, plaintiffs cite to a case with a factual background similar to the present case. See Estate of
Macias, 219 F.3d at 1018. However, the Ninth Circuit in
that case did not confront the question of whether the

App. 23
decedent’s Equal Protection right to non-discriminatory
policing had been violated, and therefore had no occasion to consider whether the policing in that case had
a discriminatory effect on a disfavored class. Rather,
the court remanded the case to the district court to allow the parties to conduct discovery as to whether the
defendants’ conduct had deprived the decedent of her
right to equal police protection and for the trial court
to ultimately consider that question. Id. at 1028.
Therefore, the decision in Estate of Macias provides no
support to plaintiffs in opposing defendants’ motion for
summary judgment.
As noted at the outset, the events at issue in this
case are tragic. However, because plaintiffs have failed
to come forward with any evidence of a discriminatory
effect, defendants’ motion for summary judgment with
respect to plaintiffs’ Equal Protection claims must be
granted.2
2. Plaintiffs’ Claims under California Law as
Time-Barred
Defendants move for summary judgment in their
favor as to all of plaintiffs’ state law tort claims on the
grounds that they are time-barred under the California Tort Claims Act (“CTCA”), and are substantively
2

Because plaintiffs have failed to come forward with evidence upon which they could prevail on their Equal Protection
claims against the individual defendants, the court need not
reach the issue of qualified immunity, the City of Fresno’s liability
under Monell v. Dep’t of Soc. Servs., 436 U.S. 658 (1978), or the
imposition of punitive damages.

App. 24
deficient under that same statute. The court addresses
these arguments in turn below.
Under the CTCA, “[a] claim relating to a cause of
action for death or injury to person . . . shall be presented as provided . . . not later than six months after
the accrual of the cause of action.” Cal. Gov’t Code
§ 911.2(a). Defendants argue that plaintiffs failed to
comply with this timeline, and that failure “bars the
action.” Javor v. Taggart, 98 Cal. App. 4th 795, 804
(2002).
Plaintiff Pamela Motley submitted a claim for
damages to the City of Fresno on September 30, 2014,
less than six months after she was shot by her exhusband Paul. (UMF at ¶ 78.) On December 22, 2014,
Cindy Raygoza’s children did the same on behalf of
themselves and the Estate of Cindy Raygoza, which
was less than six months after Ms. Raygoza was killed.
(Id. at ¶ 79.) Defendants offer no explanation in their
motion as to how the filing of these claims failed to satisfy § 911.2(a). The court therefore rejects defendants’
contention that plaintiffs’ state law claims are timebarred.
Alternatively, defendants contend that plaintiffs’
claims were deficient under the CTCA. In particular,
defendants argue that the claim, when filed, must include certain particulars, such as the causes of action
under which a plaintiff intends to proceed. (Doc. No.
102 at 35) (citing Cal. Gov’t Code §§ 910, 910.2, 910.4).
Defendants argue that plaintiffs failed to include their
causes of action in their original claims against the

App. 25
City of Fresno, and that their claims are therefore
barred. (Id. at 36.)
The court is not persuaded by defendants’ argument. California Government Code § 910 requires that
a claim contain only “[a] general description of the indebtedness, obligation, injury, damage or loss incurred
so far as it may be known.” Cal. Gov’t Code § 910(d).
The law does not require a claimant to specify the precise legal theories she intends to pursue, and the
phrase “cause of action” does not appear in the statute.
Nonetheless, the court concludes that it need not decide this question because it finds that defendants
have waived this argument. Government Code § 910.8
provides that if a claim fails to substantially comply
with the requirements of § 910, the government may
give written notice of the insufficiency and must state
therein with particularity the claim’s defects or omissions. Cal. Gov’t Code § 910.8. Further, a separate provision of the CTCA provides that the failure to give
timely notice of the insufficiency of a claim constitutes
waiver of “[a]ny defense as to the sufficiency of the
claim based upon a defect or omission in the claim as
presented.” Cal. Gov’t Code § 911. The evidence presented by defendants on summary judgment with respect to this issue reflects that the City of Fresno
rejected the plaintiffs’ claims outright and did not alert
them with the required specificity to any alleged deficiencies in those claims. Defendants have therefore
waived this argument and are not entitled to summary
judgment with respect to plaintiffs’ state law claims on
this ground.

App. 26
3. Plaintiffs’ Negligence Claim
Defendants argue on multiple grounds that they
are entitled to summary judgment in their favor on
plaintiffs’ negligence claims. The court first addresses
defendants’ argument that in light of the undisputed
facts any breach of a duty owed was not the proximate
cause of any injury to plaintiffs.
California Penal Code § 836(b) requires that
“[a]ny time a peace officer is called out on a domestic
violence call, it shall be mandatory that the officer
make a good faith effort to inform the victim of his or
her right to make a citizen’s arrest.” A separate statutory provision imposes civil liability on public entities
for failing to adhere to statutorily-mandated duties:
Where a public entity is under a mandatory
duty imposed by an enactment that is designed to protect against the risk of a particular kind of injury, the public entity is liable for
an injury of that kind proximately caused by
its failure to discharge the duty unless the
public entity establishes that it exercised reasonable diligence to discharge the duty.
Cal. Gov’t Code § 815.6. Defendants argue that, even if
§ 815.6 imposed a duty of care on them, plaintiffs have
presented no evidence that their breach of that duty
proximately caused plaintiffs’ harm. Defendants argue
that “proximate cause cannot be established when a
governmental defendant’s failure to act allegedly
caused injury, but the chain of causation included discretionary determinations for which no liability could
be imposed.” (Doc. No. 102 at 29.) Plaintiffs respond by

App. 27
contending that if they had been aware of their right
to make a citizen’s arrest, they would have done so.3
(UMF at ¶ 72.) Moreover, plaintiffs note FPD officers
are trained that an arrest is mandatory when there is
probable cause to believe that a DVRO has been violated, or when felony domestic battery has occurred.
(Id. at ¶ 71.) Thus, according to plaintiffs, by defendants failing to inform Pamela Motley and Cindy
Raygoza of their right to make a citizen’s arrest, their
assailants were not arrested, proximately leading to
the violent acts taken against them.
A long line of California cases stands for the proposition that “proximate cause [is] not established when
a governmental defendant’s failure to act allegedly
caused the injury, but the chain of causation included
discretionary determinations for which no liability
could be imposed.” State Dep’t of State Hosps. v. Superior Court, 61 Cal. 4th 339, 353–55 (2015) (citing Fleming v. State, 34 Cal. App. 4th 1378 (1995); State v.
Superior Court, 150 Cal. App. 3d 848 (1984); Whitcombe v. County of Yolo, 73 Cal. App. 3d 698 (1977)).
Defendants point to two discretionary decisions which,
they contend, preclude a finding of proximate cause
here. First, defendants claim that the arrest of the assailants in this case is premised upon the inherently
discretionary finding of probable cause. Second, they
3

According to plaintiffs, “the private person arrest process
. . . allows a citizen to request an arrest, which, if probable cause
exists, would subject the perpetrator to arrest by law enforcement.” (UMF at ¶ 72.) This alleviates the requirement that a victim “hunt down” the suspect. (Id.)

App. 28
argue that even if an arrest had occurred, whether the
assailants would have remained in police custody
would have been at the discretion of a judicial officer.
The court concludes that whether the assailants
in this case would have remained in custody following
their arrest is a question involving the exercise of judicial discretion, which breaks the causal chain for purposes of proximate causation. Even assuming that
Paul and Reams had been arrested, it is far from certain that they would have remained in custody. The decision in Fleming is instructive in this regard. In that
case, the victim’s estate brought an action against the
state of California and a parole officer alleging negligence for failure to prevent the victim’s murder. Fleming, 34 Cal. App. 4th at 1381. The assailant was a
parolee released from California state prison, who subsequently traveled out of state in violation of his parole. Id. at 1382. His parole officer was made aware of
this violation, and was also made aware that the parolee was in possession of child pornography. Id. Despite this, the parole officer failed to take any steps to
have the parolee arrested, after which the parolee proceeded to murder the victim. Id. The court found that
plaintiffs could not establish that the state or the parole officer proximately caused the victim’s death, explaining that the “failure to arrest . . . was not in itself
a cause of the injury, since arrest without a period of
incarceration would not necessarily have prevented
the crime. Incarceration, however, would have involved
procedural steps involving the exercise of discretion
and thus have broken the causal chain.” Id. at 1384

App. 29
(citing State v. Superior Court, 150 Cal. App. 3d at 858–
59).
Here, plaintiffs cannot and do not dispute the
proposition that the setting of bail is within the state
court’s discretion. People v. Accredited Sur. & Cas. Co.,
125 Cal. App. 4th 1, 4 (2004) (“The judicial officer has
discretion to reduce bail below the minimum established by the bail schedule”). Under California law,
judges must set bail with reference to the applicable
bail schedule, but are free to depart from those schedules so long as they “state specific grounds for [their]
decision” to do so. In re Christie, 92 Cal. App. 4th 1105,
1107 (2001). The court therefore concludes that this
discretionary function severs the chain of liability
plaintiffs rely upon to establish proximate cause.
Plaintiffs argue that “had Paul been arrested in
late March of 2014, pursuant to a citizen’s arrest, he
very likely would have remained in custody past April
12” because he would have been unable to pay the presumptive bail. (Doc. No. 118 at 19.) Even if this speculation were proven to be true, that still does not resolve
the question of whether he would have been required
to post bail to secure his release. It may perhaps have
been likely or presumptive, but the setting of a cash
bail was not compelled as a matter of law because a
judge would have had discretion to depart from the bail
schedule, or even order an own recognizance release.
Because the imposition of bail “would have involved
procedural steps involving the exercise of discretion,”
the causal chain between failing to arrest the

App. 30
assailants and the harm suffered by plaintiffs was severed. Fleming, 34 Cal. App. 4th at 1384.
Under these circumstances, it cannot be said that
defendants’ actions proximately caused plaintiffs’ injuries because any decision as to remanding the assailants into custody, or the amount of bail required to
secure their release, was purely discretionary. Therefore, despite the tragic consequences suffered here, defendants are entitled to summary judgment in their
favor with respect to plaintiffs’ state law negligence
claims.
Because defendants are entitled to summary judgment on plaintiffs’ negligence claims, they are also entitled to summary judgment on plaintiff Estate of
Cindy Raygoza’s wrongful death claim. See Boeken v.
Philip Morris USA, Inc., 48 Cal. 4th 788, 806 (2010)
(quoting 5 Witkin, Cal. Procedure, Pleading, § 938 at p.
352 (5th ed. 2008)) (“The elements of the cause of action for wrongful death are the tort (negligence or
other wrongful act), the resulting death, and the damages, consisting of the pecuniary loss suffered by the
heirs”)). For these reasons, the court will grant defendants’ motion for summary judgment with respect to
plaintiffs’ negligence and related claims.
B. Defendants’ Motion in Limine
Defendants have also filed a motion in limine to
exclude all evidence and witnesses not disclosed by
plaintiffs prior to the discovery cut-off in this action.
(Doc. No. 106.) The court has not relied on any such

App. 31
evidence in adjudicating defendants’ motion for summary judgment, relying only upon the parties’ Statements of Undisputed Facts. (Doc. Nos. 103, 120.)
Moreover, because the court will grant summary judgment in favor of defendants with respect to all of plaintiffs’ claims, it need not address whether the allegedly
untimely disclosed evidence would be admissible at
trial. Accordingly, defendants’ motion to exclude evidence will be denied as moot.
C. Plaintiffs’ Motion for Sanctions
Plaintiffs have moved for an award of sanctions,
arguing that defendants committed various discovery
violations during the course of this litigation. (Doc. No.
107.) Specifically, plaintiffs contend that defendants
failed to adequately respond to requests for production
of documents, submitted boilerplate objections that
were irrelevant as to the materials which plaintiffs
sought to be produced, and “unduly impeded the flow
of information” during depositions. (Id.) Defendants
object to this motion on both procedural and substantive grounds. Specifically, defendants argue that plaintiff ’s motion for sanctions was improperly noticed for
hearing before the undersigned because Local Rule
302 provides that “[a]ll discovery motions, including
Fed. R. Civ. P. 37 motions,” are to be brought before the
assigned magistrate judge. (Doc. No. 110) (citing Local
Rule 302(c)(1)). Plaintiffs respond that they noticed
their motion for sanctions before this court rather than
the assigned magistrate judge “because they consider

App. 32
it a dispositive motion, given the sanctions they seek.”
(Doc. No. 117 at 10.)
Local Rule 302(c)(1) states that “[a]ll discovery
motions” are to be addressed by the assigned magistrate judge. Local Rule 302(c)(1). Discovery in this action is now closed. Plaintiffs’ counsel never filed a
motion to compel seeking an order from the assigned
magistrate judge compelling production of documents,
further deposition testimony or the imposition of sanctions against defendants due to their alleged nondisclosure or failure to cooperate in the discovery
phase of this litigation. Plaintiffs conceded at oral argument on the pending motions that the arguments
they now advance in this regard were never brought to
the attention of the magistrate judge during discovery.
Plaintiffs also provide no explanation as to why these
arguments were not raised at an earlier stage in the
litigation, when discovery disputes could have been appropriately addressed. See Helfand v. Gerson, 105 F.3d
530, 536 (9th Cir. 1997) (“The failure to obtain this information, however, was the plaintiffs’ fault. They did
not challenge the defendants’ assertion of the privilege.
They did not attempt to force production of the documents. By failing to bring a motion to compel production, the plaintiffs waived their objection to the
assertion of the privilege, including their contention
that the assertion was made in bad faith.”).
Accordingly, the court will deny plaintiffs’ motion
for sanctions.

App. 33
D. Plaintiffs’ Memorandum Suggesting Sua
Sponte Reconsideration
Finally, twelve days prior to the hearing on defendants’ motion for summary judgment, plaintiffs
filed a “Suggestion for Sua Sponte Reconsideration of
Orders Granting In Part and Denying In Part Defendants’ Motions to Dismiss.” (Doc. No. 123.) In that filing,
plaintiffs contended that the court’s prior orders dismissing plaintiff Pamela Motley’s negligence claims
against defendants Smith and Little based on their
failure to arrest Paul, were erroneous. (Id. at 1–2.)
Plaintiffs invited the court to revisit its prior order and
reinstate the negligence actions against defendants
Smith and Little. Defendants did not respond to plaintiff ’s memorandum suggesting sua sponte reconsideration.4

4

Under Local Rule 230(b), “all motions shall be noticed on
the motion calendar of the assigned Judge or Magistrate Judge.”
Further, “[t]he moving party shall file a notice of motion, motion,
accompanying briefs, affidavits, if appropriate, and copies of all
documentary evidence.” A party whose motion is defectively filed
shall not be entitled to a hearing on that motion. Local Rule
230(b). Plaintiffs did not notice their memorandum for hearing,
and did not file a motion or a notice of motion seeking reconsideration. Plaintiffs’ memorandum was therefore not filed in compliance with the Local Rules of this court. Local Rule 230(b) exists
to provide both the court and the opposing party with notice of the
movant’s position, and to allow the opposing party an opportunity
to respond. Failure by a party to comply with these Rules may be
grounds for the imposition of sanctions. See Local Rule 110. Moreover, district courts are free to disregard or deny motions which
are not filed in compliance with relevant local rules. See Martinez
v. NDEX W., LLC, No. EDCV 16-506 PSG (SPx), 2016 WL
9185146, at *1 (C.D. Cal. Oct. 5, 2016); Lasher v. City of Santa

App. 34
Plaintiffs’ previously dismissed negligence claims
brought against defendants Smith and Little suffer
from the same deficiencies as those addressed above,
especially with respect to proximate cause. Plaintiffs
once again, at most, claim that the judge responsible
for setting Paul’s bail would have had “good cause to
reset his bail above the applicable bail schedule.” (Id.
at 3.) Even were plaintiffs’ speculation to be accurate,
this does nothing to defeat defendants’ argument that
the decision regarding bail would have been discretionary rather than mandatory. Accordingly, the court declines plaintiffs’ invitation to sua sponte revisit its
prior orders dismissing plaintiff Pamela Motley’s negligence claims against defendants Smith and Little.
CONCLUSION
For all of the reasons stated above,
1.

Defendants’ motion for summary judgment
(Doc. No. 102) is granted;

2.

Defendants’ motion in limine (Doc. No. 106) is
denied as moot;

3.

Plaintiffs’ motion for the imposition of sanctions (Doc. No. 107) is denied; and

4.

The Clerk of the Court is directed to enter
judgment and close this case.

Clara, No. 5:10-cv-04173-LHK, 2012 WL 381208, at *5 n.4 (N.D.
Cal. Feb. 6, 2012). Nonetheless, the court has considered and addressed plaintiffs’ memorandum.

App. 35
IT IS SO ORDERED.
Dated: January 8, 2018
/s/ Dale A. Drozd
UNITED STATES
DISTRICT JUDGE

App. 36
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
PAMELA MOTLEY; et al.,
Plaintiffs-Appellants,
v.
JOSEPH SMITH, Fresno
Police Officer; et al.,
Defendants-Appellees.

No. 18-15171
D.C. No.
1:15-cv-00905DAD-BAM
Eastern District of
California, Fresno
ORDER
(Filed Oct. 16, 2019)

Before: O’SCANNLAIN, McKEOWN, and BENNETT,
Circuit Judges.
The panel has voted to deny the petition for rehearing.
The full court has been advised of the petition for
rehearing and rehearing en banc, and no judge has requested a vote on whether to rehear the matter en
banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition
for rehearing en banc are denied.

